APPENDIX
TABLE OF CONTENTS
Page
APPENDIX A: Opinion of the District of Columbia Court of Appeals
(Jan. 10, 2019) ................................................................................................... 1a
APPENDIX B: Argument and Ruling on Pinkerton Instruction in the District of
Columbia Superior Court, pp. 5–10
(July 31, 2013) ................................................................................................. 23a
APPENDIX C: Order of the District of Columbia Court of Appeals Denying
Rehearing and Rehearing En Banc
(Jan. 27, 2021) ................................................................................................. 30a
APPENDIX D: Relevant Excerpts from Ashby’s Brief in the District of Columbia
Court of Appeals, pp. 3–27, 51–64
(Dec. 11, 2015) ................................................................................................. 32a
APPENDIX E: Relevant Excerpts from Government’s Brief in the District of
Columbia Court of Appeals, pp. 111–18
(May 26, 2016) ................................................................................................. 72a

Ashby v. United States, 199 A.3d 634 (2019)

199A.3d 634
District of Columbia Court of Appeals.
Paul AnthonyASHBY, KeithA. Logan,
and Merle Vernon Watson, Appellants,

v.

1a

Appendix A

Procedural Posture(s): Appellate Review.
*639 Appeals from the Superior Court of the
District of Columbia (CFl-3069-10, CFl-21619-10, and
CFl-23411-11) (Hon. Herbert B. Dixon, Jr., Trial Judge)
Attorneys and Law Firms

UNITED STATES, Appellee.
Nos. 14-CF-414, 14-CF-424, and 14-CF-669

I

Argued December 19, 2016

I

Decided January 10, 2019
Synopsis
Background: Defendants were tried together and convicted
in the Superior Court, Nos. CFI-3069-10, CFI-21619-10, and
CFl-23411-11, Herbert B. Dixon, Jr., J., of various crimes
including kidnapping, felony murder, armed robbery, and
several counts of possession of a firearm during a crime of
violence or dangerous offense (PFCV). Defendants appealed.

Holdings: The Court of Appeals, Nebeker, Senior Judge, held
that:
the trial court's refusal to provide defendants' requested
missing evidence jury instruction was not an abuse of
discretion;
basement tenant had actual or apparent authority to consent
to search of basement;
testimony from government witness about two conversation
he had with defendant were admissible as statements against
penal interest;
the trial court's order precluding bias cross-examination of
government witness regarding an unrelated murder was not
an abuse of discretion; and

Alice Wang, with whom Samia Fam was on the brief, for
appellant Paul Ashby.
Thomas T. Heslep, Washington, D.C., for appellant Keith
Logan.
Margaret M. Cassidy for appellant Merle Watson.
James A. Ewing, Assistant United States Attorney, with
whom Channing D. Phillips, United States Attorney at the
time the brief was filed, and Elizabeth Trosman, Elizabeth
H. Danello, Michael Liebman, and Erik Kenerson, Assistant
United States Attorneys, were on the brief, for appellee.
Before Blackbume-Rigsby, Chief Judge,* Fisher, Associate
Judge, and Nebeker, Senior Judge.
Chief Judge Blackbume-Rigsby was an Associate
Judge at the time of argument. Her status changed
to Chief Judge on March 18, 2017.
Opinion
Nebeker, Senior Judge:
*640 Appellants Paul Ashby, Keith Logan, and Merle
Watson appeal, together and separately, various convictions
related to the kidnapping and murder of Camell Bolden and
the shooting of Danielle Daniels on December 30, 2009. The
three were jointly tried before a jury in July and August of
2013, and were found guilty of a majority of the charged
offenses. Given the factual and legal complexities, the number
of issues, and the length of this opinion, we set forth a table
of contents below.

the prosecutor's closing argument, where he referred to
codefendants as "hardened killers" and "stone-cold killers"
and urged the jury to find defendants guilty in order to
vindicate the victim's suffering, did not constitute plain error.

I. FACTUAL BACKGROUND

Affirmed in part; remanded in part.

II. ANALYSIS
A. Alleged Brady Violations and Sanctions

TABLE OF CONTENTS

WEST AW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

Ashby v. United States, 199 A.3d 634 (2019)

B. Motions to Suppress Evidence

i. The Search of70 W Street, N.W.
ii. Ashby's Cell phone Records
C. Admission of Out-of-Court Statements

i. Statements Against Penal Interest
ii. The State-of-Mind Exception
iii. Denial of Severance
D. Winfield Defense and Bias Cross-Examination

i. Winfield Defense
ii. Bias Cross-Examination
E. Sufficiency of the Evidence for the Daniels Shooting
Conviction
F. The Pinkerton Instruction
G. The Prosecutor's Closing Argument
H. Logan's Unannounced PFCV Conviction

I. Merger of Convictions
III. CONCLUSION
I. FACTUAL BACKGROUND

On December 30, 2009, the victims, Carnell Bolden and his
girlfriend Danielle Daniels, drove to W Street in the northwest
quadrant of the District ofColumbia. At approximately six in
the evening, Ms. Daniels dropped off Mr. Bolden so he could
briefly visit some friends.
Appellant Logan and his girlfriend, Queen Williams, lived on
the top two floors ofa house located at 70 W Street, N.W., near
the area where Ms. Daniels dropped off Mr. Bolden. Logan's
uncle, Bruce Adams, was the owner of the home. Derrick
Hill had rented the basement apartment, paying rent to Logan,
from February or March until November 2009. Mr. Hill and
Mr. Bolden were good friends, and Mr. Bolden supplied crack
cocaine for Mr. Hill to sell from the basement apartment.

2a

Appendix A
Logan was aware of this arrangement, and had purchased
cocaine from Mr. Bolden through Mr. Hill in the past. Logan
also sold heroin out of the top two floors, and used the drug
himself.
After Mr. Bolden exited the car, Ms. Daniels waited in the car.
When Mr. Bolden *641 did not return within ten minutes, as
Ms. Daniels had anticipated, she began calling his cell phone.
When she received no response, she got out of the car and
spent approximately five to ten minutes searching the length
of the street, all the while attempting to call Mr. Bolden, and
saw no one outside. Ms. Daniels then got back into the driver's
seat of her car and shut the door.
Close to 7:00 p.m., Ms. Daniels saw in the driver's side mirror
that someone was approaching the driver's side of the car
from behind. This "dark figure" in a black hooded sweatshirt
"put a gun up to the window and just started shooting." After
the assailant stopped shooting and fled, Ms. Daniels exited
her car, called for help, and, within five minutes, called 91 l.
Her 911 call was placed at about 7:15 p.m. A neighbor on
W Street was looking out her window and saw a "man in
dark clothing with a hood" run down the street, and she
also called 911 in response to gunshots. Ms. Daniels was
subsequently able to receive medical attention and survived
the shooting. However, she was hospitalized for three months
and underwent several surgeries; at the time of trial, she
suffered from nerve damage and loss of use of her left hand.
On the morning of December 31, 2009, a Metropolitan
Police Department ("MPD") officer found Mr. Holden's body
twenty-five feet off the side of the road near the 3000 block
of Park Drive, S.E.; it appeared to have been dragged there.
The cause of Mr. Holden's death was determined to be two
gunshot wounds to the face that appeared to have been fired
at close range. 1 Duct tape covered Mr. Holden's mouth and
eyes, his pants were pulled down, and his feet were bound
by duct tape, packing tape, and electrical cords "consistent
with" having been pulled from a television set. Mr. Bolden
also had multiple injuries, including bruising on his left eye,
his nose, right cheek, and upper lip; hemorrhaging was also
found under the right side of his scalp.
No form of identification was found on Mr.
Bolden's body, but the police were able to confirm
his identity through a fingerprint database.
After searching the 70 W Street house, discussed further in
section 11.B.i below, the police found substantial evidence

WEST AW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Ashby v. United States, 199 A.3d 634 (2019)

establishing that Mr. Bolden had been murdered there. Mr.
Bolden's blood was found on a jacket that Mr. Hill gave to
the police. A piece oftape found on Mr. Bolden's body was a
"fracture match" with a roll found in the basement, showing
that the piece oftape had been tom from that roll. A television
set missing a cord like the one found on Mr. Bolden's body
was also recovered. Additionally, Mr. Bolden's blood was
found in a car which Logan had access to; it had been driven
by Ms. Williams and was found abandoned about five blocks
from the W Street house on January 8 , 2010 , days after the
murder. A neighbor also testified that the car had been parked
around70 W Street in the past.
Substantial evidence also linked appellants to the murder.
Appellants Ashby and Watson had been seen at and around
the 70 W Street house in the weeks leading up to the
murder. Ashby and Watson had a"close" relationship, and, on
December24 ,2009, Watson, Ashby, and Logan were together
for at least forty- five minutes at the70 W Street house. Logan
had called Mr. Bolden twice on December 30 , 2009, at 4 :19
p.m. and5:47 p.m. Watson also called911 from his phone at
6 :44 the evening of December30 , 2009, about thirty minutes
before Ms. Daniels was shot, to falsely report the shooting
of an undercover police *642 officer. 2 Phone records and
location data regarding Ashby's call activity, discussed in
section 11.B.ii below, revealed that Ashby had called Watson
five times between12:59 p.m. and6:27 p.m. the night of the
shooting and murder, from the vicinity of the crime scene,
and an expert testified that, based on the progression ofphone
calls, Ashby's phone had traveled south, towards the area
where Mr. Bolden's body was found.
2

The government argued at trial, and appellants
disputed, that Watson made this call in order to
divert police away from the location where he and
the other appellants were moving Mr. Bolden's
body into a car.

In addition, John Carrington, an acquaintance ofMr. Bolden,
stated that, in November 2009, weeks before Mr. Bolden's
murder, Logan suggested they"rob and kill" Mr. Bolden. Mr.
Carrington turned down Logan's proposition, telling him"hell
no." Melvin Thomas, another acquaintance, stated that, after
the murder, Ashby approached him in a CVS parking lot and
admitted that he and his co- appellants had killed Mr. Bolden
and placed his body in the southeast quadrant of the city. 3
Mr. Thomas and Ashby spoke again later in2010 , when they
were both in the D.C. jail library. Ashby expressed that he was
not worried about the case because all of the evidence was

3a

Appendix A
"pointing at" Logan, except for Ashby's phone, which was in
police custody at the time. 4
3

4

Mr. Thomas stated that Mr. Carrington approached
them about five minutes into this conversation. Mr.
Carrington stated that, while he was present in the
CVS parking lot, he"stayed back ... out ofrespect"
and could not overhear the conversation.
Appellants appeal the admission of these
statements, discussed in more detail below. See
section 11.C., infra.

Following the MPD's investigation into the murder and the
shooting, Appellants were charged with five crimes related to
the killing ofMr. Bolden:
(1) conspiracy to kidnap and rob, in violation ofD.C. Code
§§ 22-1805 a, -2001 , and-2801;
(2) first- degree premeditated murder while armed and
felony murder while armed, in violation ofD.C. Code§§
22-2101 and-4502; and
(3) kidnapping while armed, in violation of D.C. Code
§§ 22-2001 and -4502 , and robbery while armed, in
violation ofD.C. Code§§ 22-2801 and-4502 .
They were also charged with three crimes related to the
shooting ofMs. Daniels:
(1) assault with intent to kill while armed, in violation of
D.C. Code§§ 22-401 and-4502 ("AWIK");
(2) aggravated assault while armed, in violation of D.C.
Code§§ 22-404 .01 and-4502; and
(3) mayhem while armed in violation of D.C. Code §§
22-406 and-4502 .
They were additionally charged with seven counts of
possession of a firearm during a crime of violence or
dangerous offense ("PFCV"), in relation to the above
offenses, in violation ofD.C. Code§ 22-4504 ( b).
Appellants were tried together. At the conclusion ofa month­
long jury trial in mid-2013 , the jury convicted and the judge
sentenced as follows. 5
( i) Logan was found guilty of:
*643 a. Conspiracy to kidnap or rob Camell Bolden;

WEST AW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

4a

Appendix A

5a

Appendix A

6a

Appendix A

7a

Appendix A

8a

Appendix A

9a

Appendix A

10a

Appendix A

11a

Appendix A

12a

Appendix A

13a

Appendix A

14a

Appendix A

15a

Appendix A

16a

Appendix A

17a

Appendix A

18a

Appendix A

19a

Appendix A

20a

Appendix A

21a

Appendix A

22a

Appendix A

23a

Appendix B

24a

Appendix B

25a

Appendix B

26a

Appendix B

27a

Appendix B

28a

Appendix B

29a

Appendix B

30a

Appendix C

District of Columbia
Court of Appeals
JAN 27 2021
NO. 14-CF-414
PAUL ANTHONY ASHBY,

Appellant,

CF1-3069-10

Appellant,

CF1-21619-10

Appellant,

CF1-23411-11

NO. 14-CF-424
KEITH A. LOGAN,
NO. 14-CF-669
MERLE VERNON WATSON,
v.
UNITED STATES,

Appellee.

BEFORE: Blackburne-Rigsby, * Chief Judge; Glickman, Thompson, Beckwith,
Easterly, McLeese; Nebeker, * and Fisher, ** Senior Judges.
ORDER
On consideration of appellant Paul Anthony Ashby’s unopposed motion for
leave to exceed page limit for the lodged petition for rehearing or rehearing en banc,
appellants’ Keith A. Logan and Merle Vernon Watson’s petitions for rehearing or
rehearing en banc, appellee’s motion for leave to exceed page limit for the lodged
opposition to appellants’ petitions for rehearing or rehearing en banc, and it
appearing that no judge of this court has called for a vote on the petitions for
rehearing en banc, it is
ORDERED that appellant Paul Anthony Ashby’s unopposed motion for leave
to exceed page limit for the lodged petition for rehearing or rehearing en banc is
granted, and the Clerk shall file appellant Paul Anthony Ashby’s petition for
rehearing or rehearing en banc, it is

31a

Appendix C

Nos. 14-CF-414, 14-CF-424 & 14-CF-669
FURTHER ORDERED that appellee’s motion for leave to exceed page limit
for the lodged opposition to appellants’ petitions for rehearing or rehearing en banc
is granted, and the Clerk shall file appellee’s opposition to appellants’ petitions for
rehearing or rehearing en banc, it is
FURTHER ORDERED by the merits division* that appellants Paul Anthony
Ashby, Keith A. Logan and Merle Vernon Watson’s petitions for rehearing are
denied, it is
FURTHER ORDERED that appellants Paul Anthony Ashby, Keith A. Logan
and Merle Vernon Watson’s petitions for rehearing en banc are denied.
PER CURIAM
Associate Judge Deahl did not participate in these cases.
** Judge Fisher was an Associate Judge at the time of submission. His status
changed to Senior Judge on August 23, 2020.

Copies emailed to:
Honorable Herbert B. Dixon, Jr.
Director, Criminal Division
Copies e-served to:
Samia Fam, Esquire
Public Defender Service
Thomas T. Heslep, Esquire
Margaret Cassidy, Esquire
Elizabeth Trosman, Esquire
Assistant United States Attorney

32a

Appendix D

No. 14-CF-414 (Ashby)
No. 14-CF-424 (Logan)
No. 14-CF-669 (Watson)

DISTRICT OF COLUMBIA COURT OF APPEALS
PAUL ASHBY,
KEITH LOGAN,
MERLE WATSON,
Appellants,
v.
UNITED STATES OF AMERICA,
Appellee.

Appeal from the Superior Court of the District of Columbia
Criminal Division
BRIEF FOR APPELLANT ASHBY

SAMIA FAM
* ALICE WANG
PUBLIC DEFENDER SERVICE
633 Indiana Avenue, NW
Washington, DC 20004
(202) 628-1200
* Counsel for Oral Argument

33a

Appendix D

STATEMENT OF FACTS
Overview
On the evening of December 30, 2009, Danielle Daniels was shot multiple times as she
house in Northwest D.C. waiting for her boyfriend Carnell
Bolden to return from a rendezvous. Daniels survived the shooting but did not see who shot her.

electrical cords. The bulk of the evidence pointed to Logan. Although no eyewitness identified
the perpetrators, and none of the fingerprints, hair, or DNA recovered in this case matched that
along with duct tape and electrical cords

Prosecution witness Derrick Hill testified that he sold heroin for Logan and crack cocaine
end had asked him for

calls to Bolden that afternoon. The government theorized that Logan had arranged a drug deal
with Bolden as a pretext for robbing him, but when Logan learned that Bolden had no cash and

about a month before the shootings, Logan had solicited him to rob and kill Bolden. Although
Carrington claimed that he rejected the proposal and had nothing to do with the charged crimes,
he gave the police a false alibi for the night of the shootings. The government posited that, after
being turned down by Carrington, Logan recruited defendants Paul Ashby and Merle Watson as

word of cooperating witness Melvin Thomas, a convicted murderer and known drug dealer who
3

34a

Appendix D

was close friends with Logan and Carrington but not with Ashby, and who himself had been seen
gedly enlisting
accomplices. Although he was an unlikely confidant for Ashby, Thomas claimed that Ashby
twice approached him to confess the details of the crimes: once in a CVS parking lot several
days after Logan was arrested on January 1, 2010, and again six months later in the D.C. Jail.
According to Thomas, Ashby told him that Logan came up with the idea to kill Bolden and

car, and that Ashby and Watson transported Bolden to Southeast D.C. Despite his allegiance to
Logan, Thomas fed this story to the police on January 11, 2010, and claimed at trial that he did
so only because his wife, who knew Daniels, had urged him to help bring the culprits to justice.
Although the government introduced cell phone evidence to place Ashby in the general
vicinity of the crime scenes on December 30, 2009, and to show that the defendants called each
Ashby and

house in Northwest D.C., and placing Ashby and Watson in Northwest D.C. when a witness in
Southeast D.C. heard the gunshots that allegedly killed Bolden. The government urged the jury
to ignore these problems and convict all three defendants on a theory of co-conspirator liability,
which did not require the jury to receive reliable evidence of who did what, so long as it found
that the defendants had agreed to rob or kidnap Bolden.
On appeal, Ashby raises four claims of reversible error. First, although defense counsel
authorities in this case because he feared that the police might suspect him of being involved in

4

35a

Appendix D

the time of trial, the trial court erroneously precluded the defense from cross-examining Thomas
about these potential sources of bias. Second, when the government argued in summation that
Thomas could not have reported such accurate details about the crimes unless he learned them
in response that

jury on a theory of co-conspirator liability for the charged crimes, when that theory of liability is

The Shootings and Crime Scene Investigation
Danielle Daniels testified that, around 5:30 p.m. on December 30, 2009, she drove her

D.C. 7/2/13 Tr. 239-40. Around 6:00 p.m., they arrived at the unit block of W Street, where
Bolden got out and Daniels stayed in the car, expecting him to return within ten minutes. Id. at
240-42. When he did not, Daniels called and texted his cell phone but received no answer. Id. at
244. Shortl
Id. at 247-48. Daniels was struck by six gunshots, which caused
permanent nerve damage to the left side of her body. Id. at 248, 254. Daniels called 911 at 7:15
p.m., within five minutes of the shooting. Id.
could not tell if the shooter was a male or a female. Id. at 248, 273.
Justin Lewis testified that, on the night of December 30, 2009, he heard one or two
gunshots from his house on 31st Street and Park Drive in Southeast D.C. Id. at 313-15. He
looked out the window toward the wooded area behind his house and saw a vehicle driving

5

36a

Appendix D

slowly on Park Drive. Id. at 316dead body in the 3000 block of Park Drive. Id. at 355-56. When interviewed that day, on
December 31, 2009, Lewis told police in a written statement that he had heard gunshots the
previous night around 8:30 p.m. Id. at 326, 331.3

injuries consistent with a beating but not a choking, id. at 70-71, 75-76. His body was bound
with duct tape and electrical cords, and his wallet and cell phone were missing. 7/10/13 Tr. 416;

from the shooting of Daniels were fired from a semi-automatic firearm. 7/9/13 Tr. 587-88, 591.
No guns were found in connection to this case.

Department (MPD) Detective Joshua

Hill. Id. at 417-19. Keith Logan answered the door and explained that Hill was not there. Id. at
420power cord ripped out, and electrical cords strewn about the room. Id. at 426. Branson then told
Logan that he needed to speak with him at the police station about the shooting on W Street. Id.
at 429. When Logan arrived at the station, Branson checked his criminal history, discovered an
outstanding parole warrant, and arrested Logan on that warrant. Id. at 430.
3

the gunsh
Tr. 336. Although Lewis estimated at trial that he heard the gunshots around 7:30 or 8:00, id. at
332, he admitted that his memory of the events was better in 2010 than in 2013, id. at 334.
6

37a

Appendix D

electrical cords that Branson had seen. 7/11/13 Tr. 90, 100, 108-10. During a subsequent search
of the basement on January 11, 2010, police discovered bloodstains on a bedroom wall and on a
yellow jacket belonging to Hill, and two rolls of duct tape tucked inside a laundry basket

none

of which they had seen during the first search. Id. at 118, 124, 128-30, 174; 7/17/13 Tr. 524,
530-38.4 Two days later, on January 13, 2010, police found more bloodstains and duct tape in a
Land Rover associated with Logan. 7/17/13 Tr. 542, 545, 568. 5 DNA analysis showed that the
-45.

were consistent with the duct tape and television set found

-

15; 7/25/13 Tr. 1243-44, 1258.
None of the physical evidence recovered from the crime scenes was connected to Ashby.

no

not come from Ashby. 7/25/13 Tr. 1302-03. Finally, according to DNA testing conducted by
both the government and the defense, Ashby was not the source of any of the DNA recovered

4

Police conducted the second search after Hill reported discovering a bloodstain on his jacket
-52, 256-57, 288;
7/11/13 Tr. 117-20. The scene was not secured during the ten days between the two searches.
7/11/13 Tr. 189.
5

Police conducted a traffic stop of the Land Rover on January 1, 2010, and arrested both
occupants
-sister Diane McCray and his girlfriend Queen Williams after finding
cocaine in the car. 7/17/13 Tr. 602, 612-14. McCray testified that Williams had driven the Land
Rover to her apartment that day, that she had seen Williams in the Land Rover two weeks earlier,
and that she saw the Land Rover parked outside 70 W Street in December 2009. Id. at 613-16.
7

38a

Appendix D

shooting. 7/18/13 Tr. 951-52; 7/22/13 Tr. 1161-68.
Nor were any of the defendants found with proceeds from the alleged robbery of Bolden.

debit card had been used at two gas stations in Northeast D.C. on January 1, 2010, two days after
the murder, and at three businesses in Sanford, North Carolina, on January 12, 2010, after Logan
and Ashby had been incarcerated on unrelated charges, the government withheld this information
from the defense for three years, and Greene failed to preserve security camera footage that may
have depicted the unauthorized purchases. 7/29/13 Tr. 16, 20-21, 34-36; 12/14/12 Tr. 7-8. 6
Police eventually traced the purchases to Ronald Smith, a crack cocaine dealer who supposedly
efore moving
to Sanford, North Carolina, in January 2010. 7/29/13 Tr. 37-38; 7/30/13 Tr. 113-20, 132.

W Street in Northwest D.C. 7/8/13 Tr. 179-81. Hill sold heroin for Logan and crack cocaine for
6

rentwood. 7/29/13 Tr. 16, 21-22, 34.
Although Greene spoke to the manager of New York BP and obtained security camera footage
for January 1, 2010, he lost the footage soon thereafter, and he never requested footage from
elieved it was the same gas station as New York BP. Id. at
22-34. Nor did Greene investigate the debit card purchases made in North Carolina until three
years later, when the security camera footage had been destroyed, and one of the establishments
had gone out of business. Id. at 34in disclosing this exculpatory information to the defense violated Brady v. Maryland, 373 U.S.
3 Tr. 64. As a sanction, the
footage that Greene failed to preserve. 7/26/13 Tr. 1389-91; 7/30/13 Tr. 25-28; 7/31/13 Tr. 63.
8

39a

Appendix D

Id. at 182-83; 7/9/13 Tr. 288. Bolden would come to
which he would
sell, sometimes to Logan. 7/8/13 Tr. 183-84. According to Hill, both Bolden and Logan were
successful drug dealers. 7/9/13 Tr. 287, 316.
In October 2010, Hill stopped paying rent and was asked to move out of the basement.
7/8/13 Tr. 187
basement and continued to go there every day. Id. at 190-91. Hill testified that, the day before
anged, and then
went upstairs to speak with Logan while Hill stayed downstairs. Id. at 205-07. The next day, on

number on a piece of paper, which Williams brought upstairs to Logan. Id. at 211-15; 7/9/13 Tr.
240at 4:19 p.m. and 5:47 p.m. on December 30, 2009. 7/22/13 Tr. 1036.

in the weeks before the shootings

a fact that Hill failed to mention in his police statements and

grand jury testimony
shootings. 7/8/13 Tr. 195-96, 219; 7/9/13 Tr. 267-72; 7/25/13 Tr. 1334. In addition to being
impeached with his lengthy criminal record 7 and his concern about being an initial suspect in

-62, 272, 300.

7

Hill was convicted of cocaine distribution in 1997, possession of cocaine in 1989, violation of
the Bail Reform Act in 1989, shoplifting in 1984, and credit card fraud in 1980. 7/8/13 Tr. 177.
9

40a

Appendix D

Norlin Washington testified that, in late 2009, he frequently went to 70 W Street to buy
drugs. 7/8/13 Tr. 16-17.8 He bought heroin from Logan and cocaine from Hill, and he used
drugs with Watson. Id. at 20, 58, 70. He knew Ashby from seeing him around the Shaw area,
near Howard University, where Ashby hung out with Watson. Id. at 21, 69.
Washington testified that, on December 24, 2009, he went to 70 W Street to buy heroin,
and he saw Logan, Ashby, and Watson there, along with Gregory Shipman and Melvin Thomas,
Id. at 23-26, 63-64, 73-75.
According to the government, it was during this gathering at 70 W Street on December 24, 2009,
-68. Washington
also testified that, some time between

-42. Washington did not mention these alleged statements
when he spoke to the police in July 2010 or when he testified in the grand jury in August 2010.
Id.
December 30, 2009, reporting that an undercover police officer had been shot at 5th Street and
W Street

a report that turned out to be false. Id. at 45; 7/15/13 Tr. 81-83; 7/22/13 Tr. 1038. 9

According to the government, Watson made the false report from 5th and W to divert police
attention from the shooting of Daniels four blocks away. 7/31/13 Tr. 172-75. According to the
defense, Watson and his father were at 5th and W to buy heroin when Watson noticed suspicious
activity and summoned police quickly to the area to protect his elderly father. 8/1/13 Tr. 141-42.

8

Washington had numerous drug and theft convictions from 1997 to 2012, and he had pending
criminal cases in D.C., Maryland, and Virginia at the time of trial. 7/9/13 Tr. 47-48.
9

10

41a

Appendix D

John Carrington testified that, in November 2009, his close friend Logan solicited him to
rob and kill Bolden, whom Carrington knew from growing up in LeDroit Park. 7/18/13 Tr. 74244.10

ded some
Id. at 744. When Carrington said he did need some money, Logan suggested that he

rob and kill Bolden. Id.
Id. at 744, 751.
Id. at 760. He told

with a woman he knew from work named Tameka Jackson. Id. at 906-07; 7/29/13 Tr. 13-14.
Carrington claimed that he and Jackson sat in his car, parked in front of her apartment building in
Southeast D.C., from 5:00 p.m. to 11:00 p.m.; that he left the car during those six hours only to
use the bathroom inside Jack
-hour
date. 7/18/13 Tr. 906-07, 910. Carrington also testified that, around 3:30 p.m. the next day, he
Id. at 906, 910-11.
Tameka Jackson testified that, although Carrington had driven her home from work on
occasion, she never went on a date with him, she never sat in his car for hours, he never entered
her apartment to use the bathroom, and she never heard anyone tell him about a shooting on W
Street. 7/30/13 Tr. 172-75, 185. Detective Greene testified that, although he tried to contact

-

10

Carrington was convicted of assault with a dangerous weapon and possession of a firearm
during a crime of violence in 1992; attempted possession with intent to distribute marijuana in
1990; and possession of PCP, marijuana, and heroin in 1987. 7/18/13 Tr. 736.
11

42a

Appendix D

was not identified until after 7:00 p.m. on December 31, 2009, and the news of his murder was
not disclosed to the public until after 8:00 p.m. that night. Id. at 9-10.
Carrington testified that, the day after the shootings, he went to 70 W Street to see Logan,
who introduced him to Ashby. 7/18/13 Tr. 753Id. at 801.
Carrington testified that, several days later, he went to the parking lot of the CVS pharmacy at
7th Street and Florida Avenue to find his close friend Melvin Thomas because he was worried

Id. at 758-60. As Carrington approached, he saw Thomas talking with Ashby and another man
he did not recognize. Id. at 762-63. Carrington testified that he did not join or overhear their
Id. at 763-64.
According to Carrington, he did not approach Thomas until after the conversation ended and
Ashby and the other man walked away together. Id. at 764.

murder. Id. at 831. Although he told them about seeing Ashby with Logan at 70 W Street and
with Thomas in the CVS parking lot, he did not mention that Logan had solicited him to rob and
kill Bolden until May 2011, when he was arrested for threatening to kill a woman after crashing
into her car while driving drunk

a parole violation for which he faced ten years in prison. Id. at

777-80, 893. By the time of trial, Carrington had secured a cooperation agreement in which he

pending criminal case and parole revocation hearing. Id. at 737-38, 775-76.
Melvin Thomas, who was close friends with Carrington and Logan but not with Ashby,
also testified at trial pursuant to a cooperation agreement. 7/15/13 Tr. 151-52; 7/16/13 Tr. 307,

12

43a

Appendix D

342
By the time of trial, Thomas

who was on lifetime parole for a murder conviction and had been

previously convicted of multiple drug and gun offenses

had collected a slew of felony charges

this case. 7/15/13 Tr. 149-50, 153, 220; see infra note 13.
Thomas claimed that, in early January 2010, he encountered Ashby and Shipman 11 in the

-59. According to Thomas,

Id. at 164-66, 168, 173-74, 176. Thomas testified

anuary 11,
2010, he pointed the finger at Logan and Ashby, and cooperated with the police for the first time
in his life, because his wife, who knew Daniels, had urged him to help in the investigation of the
shootings

an explanation that he gave for the first time at trial. Id. at 172, 178, 191-92; 7/16/13

Tr. 355-58.12
Thomas claimed that Shipman walked away before the conversation started, that Carrington
joined the conversation

standing in between Thomas and Ashby

about five minutes after

Ashby started talking, that Carrington announced to Thomas and Ashby that he had just spoken
11

Thomas testified that he knew Shipman but was not friends with him. 7/16/13 Tr. 331.

12

When Thomas inculpated Logan and Ashby on January 11, 2010, both defendants had been
arrested for unrelated offenses, and Thomas mistakenly believed that Logan had been arrested
for the shootings of Daniels and Bolden. 7/2/13 Tr. 292; 7/15/13 Tr. 156, 165.
13

44a

Appendix D

to homicide detectives, and that Ashby continued to incriminate himself for another twenty
minutes i

-78;

7/16/13 Tr. 336-40, 393-94.
Thomas further claimed that, on July 16, 2010, after he was arrested and incarcerated for
soliciting a prostitute and assaulting two police officers, he once again encountered Ashby, this
time in the law library of the D.C. Jail, where Ashby told him more about the shootings. 7/15/13
Tr. 180-84; 7/16/13 Tr. 394-95.13
was pointing at [Log

14

that

police. 7/15/13 Tr. 184-91; 7/16/13 Tr. 359-61.15
13

In April 2010, Thomas was arrested and charged with one count of solicitation and two counts
of felony assault on a police officer (APO), for which he faced thirty years of imprisonment and
revocation of his lifetime parole. 7/16/13 Tr. 395-98. In May 2010, just a few days after being
released on his APO charges, Thomas was arrested in Virginia on drug and traffic charges that
were still pending at the time of this trial. Id. at 408-09, 411, 414-15. In October 2010, Thomas
promised to testify in this case in exchange for a misdemeanor plea on his APO charges, which
Id. at 397. In May 2013, after completing his sentences for
his APO convictions and associated parole violations, Thomas was again arrested for assaulting a
police officer and unlawfully possessing a firearm charges that were dismissed by the time of
trial. 7/15/13 Tr. 220-23. At the time of trial, Thomas was awaiting a parole revocation hearing
for his most recent arrest
hearing in exchange for his testimony in this case. Id. at 152; 7/16/13 Tr. 415-19.
14

brother who owned property on W Street in Northwest D.C. 7/22/13 Tr. 1141, 1144.
15

Detective Kenniss Weeks testified that, when she served Ashby with a warrant to obtain a

Id. at 637-38, 642.
14

45a

Appendix D

The Precluded Bias Cross-Examination

confidant and had nothing to gain from blaming Logan and Ashby for the shootings when first
questioned by the police in January 2010. In an ef
the only evidence at trial that directly linked Ashby to the crimes

defense

counsel sought to cross-examine Thomas about his potential motives to incriminate Ashby,
including his own apparent connections to the charged crimes. In support of this proposed line
of bias cross-examination, counsel proffered a collection of facts tending to show that Thomas
pect to

o

70 W Street

the same place where Bolden ran his lucrative crack cocaine business

he likely

whether to rob him for cash
or to eliminate him as a competing drug dealer. 7/16/13 Tr. 270. Although Thomas insisted that
he did not sell drugs around the time of the shootings, 16 7/15/13 Tr. 208, 219

a claim that even

the government was forced to disavow by the end of trial, 8/1/13 Tr. 177-78

16

Thomas testified that, although he was wealthy enough to finance a restaurant, support two
-time job
at Central Communications, a cell phone store located at 7th Street and Florida Avenue, where
he worked forty hours a week for $8.50 an hour. 7/15/13 Tr. 153, 237-42; 7/16/13 Tr. 287-88,
292-301. Donald Campbell, who owned and operated Central Communications, testified that,
although Thomas frequented the store as a customer, he never worked there and was not a paid
employee. 7/29/13 Tr. 165-69. Although Thomas testified that he received most of his paystubs
13 Tr. 195;

15

46a

Appendix D

at 70 W Street less than a week before the shootings. 7/15/13 (sealed) Tr. 4-5; 7/15/13 Tr. 23. In
investigating the murder of Bolden, who sold drugs at 70 W Street, police would naturally focus
on who else sold drugs at 70 W Street: Thomas. As a convicted murderer with access to firearms

which made it more likely that Logan would recruit him for the job, and that police would view
him with suspicion. 7/15/13 Tr. 196. And as one of the men seen assembled at 70 W Street on
December 24, 2009, when Logan was allegedly enlisting accomplices for the crimes, Thomas

doing so. Id. at 25, 195; 7/16/13 Tr. 270. Based on these facts, defense counsel sought to crossincluding
to show that

himself. 7/16/13 Tr. 270-71.
The government objected to this proposed line of cross-examination. 7/15/13 Tr. 197.
Although the government conceded that Thomas

whether shared with Logan or not

did

not make it more

absolutely no proffer as to . . . what triggering event . . . might have made him want to attempt to
Id.; see also 7/16/13 Tr. 276-

16

47a

Appendix D

-examination,

Logan to target Bolden when the two men had no history of animosity. 7/15/13 Tr. 198. Indeed,

association

-examine Thomas about his business

Logan than Ashby did. 7/16/13 Tr. 270. 17
The trial court sided with the governm

see also id. at 203-

-examining

Thomas about hi

lines
Winfield issue for which . . . I ruled
Id. at 198-99, 203; see also 7/16/13 Tr. 277.18

The defense also sought to cross-examine Thomas on a separate, independent theory of
bias: that Thomas was potentially involved, or at least feared being implicated, in several other
serious crimes being investigated at the time of trial, which gave him a strong liberty interest in
currying favor with the government by providing testimony that the government wanted to hear
in this case. 7/16/13 Tr. 251-57, 261, 273. First, defense counsel proffered that, according to an
arrest warrant affidavit filed in federal court the previous day, Thomas had been under police
17

-examination, and both Logan and Ashby moved
for a severance, which the trial court denied. 7/16/13 Tr. 274, 277.
18

Pursuant to an earlier ruling, 7/15/13 Tr. 26-31, the trial court permitted the defense to crossexamine Thomas on whether he packaged heroin at 70 W Street on December 24, 2009, in front
a basis for Mr. Thomas wanting
id. at 198.
17

48a

Appendix D

Braxton
a day

-related
Id. at 249-50, 254.19 The affidavit stated that, in April 2013, police believed that
ment of heroin from Guatemala

that was intercepted in Houston; after Thomas was arrested on unrelated charges in May 2013,
the
day Thomas testified on direct examination in this case. Id. at 248-50, 255-56.

business partner Raymond Proctor was arrested and indicted earlier that year for selling large
quantities of heroin to undercover
located at 3118 Georgia Avenue that Thomas co-owned with Proctor. 7/15/13 (sealed) Tr. 5-6;
7/16/13 Tr. 250drug operation
Finally, defense counsel proffered that, according to eyewitness accounts, Thomas was
d
at 2718 Georgia Avenue. Id. at 261-62. Thomas and McFadden got into a fight at the bar, and

19

Defense counsel proffered phone records showing more than 400 calls between Thomas and
Braxton while Thomas was incarcerated at the D.C. Jail. 7/16/13 Tr. 254. Thomas admitted that
Braxton had access to his bank accounts, id. at 291id. at 325.
During one of those phone calls, on August 14, 2010, Braxton reported to Thomas a street rumor
Id.
at 370Id. at
372Id.
Id. at 377-78. When crossId. at 373.
18

49a

Appendix D

Id. at 261. According to eyewitnesses who had spoken to the defen
Id. at 261-62.

-examine Thomas about
his potential connection to the other two crimes
Cuisine, and the murder of

government to avoid prosecution. Id. at 266. In opposing these topics of cross-examination, the
-

rrested on unrelated

Id. at 265. The government argued, however, that because the detective did not suspect Thomas

Id. at 265-66.20 The defense countered that, regardless of whether

20

According to the government, Thomas deni
when questioned in May 2013. 10/9/13 Tr. 7. In August 2013, however, as soon as this trial
who might have been involved or who might be culpable,
Id. at 7-8; see also 11/15/13 Tr.
7. Based on this newly discovered evidence, the defense moved for a new trial, which the trial
court denied. R. 117; 2/21/14 Tr. 23-27.
19

50a

o curry favor with the government

Appendix D

especially at

this stage of the investigation, where [he may be] thinking that if I testify in this murder case,
Id.
appears that h

Id. The trial court summarily denied the defense request for cross-

Id. at 259, 268-69, 273; see also 7/30/13 Tr. 205-06; 10/9/13 Tr. 9-10.
The Cell Phone Evidence

crimes, the government presented cell phone records showing frequent communication between
Logan, Ashby, and Watson on

numbers allegedly associated with the defendants: 202-536-0656
(Ashby), 202-361-6722 (Logan), and 301-407-7313 (Watson). 7/22/13 Tr. 993, 998-99, 1001.
The call detail records listed all incoming and outgoing calls; the date and time of each call; the
p
receive each call. Id. at 1000-06.21 Based on information obtained from the cell phone service
providers about the location and orientation of each cell site, Horan mapped the general areas
where each phone was used at various times on December 30, 2009. Id. at 995-97, 1005-06.22

any given time; rather, it could de
21

The call detail records showed three calls between Logan and Ashby, and more than twenty
calls between Ashby and Watson, on December 30, 2009. 7/22/13 Tr. 1030, 1038.
22

The cell site maps that Horan used as demonstrative aids during his testimony are reproduced

20

51a

Appendix D

on the surrounding geography and the distance between cell sites. Id. at 1055-76, 1084-86.
Based on his analysis of the call detail records and cell site location information, Horan

as in Southeast
D.C. from 7:07 p.m. to 7:20 p.m.; and it was back in the LeDroit Park or Shaw area from 8:01 to
9:00 p.m. Id. at 1032-35, 1039, 1046-48.23
from 1:29 p.m. to 10:33 p.m., except between 5:47 p.m. and 8:08 p.m., when it did not make or
receive any calls and thus could not be tracked by cell site analysis. Id. at 1035-37.24
phone remained in the LeDroit Park or Shaw area from 5:21 p.m. to 9:00 p.m. Id. at 1037-39.
Because none of the call detail records provided any identifying information about the
subscribers, the government relied on other evidence to connect the cell phone numbers to the
defendants.25

-361-6722. 7/9/13 Tr. 241-44.

Two police officers testified that, on January 9, 2010, a cell phone was seized from Ashby during
his arrest for an unrelated offense. 7/2/13 Tr. 292; 7/16/13 Tr. 469. Detective Greene testified
from the property office, where it had

23

-time girlfriend testified that she lived at 1741 28th Street in Southeast D.C., and
o lived nearby. 7/22/13 Tr. 1137, 1139-40, 1144.

24

speak with Charles

-606, 609-10,
Id. at 603. McCray left her
apartment soon thereafter, and when she returned an hour later, Logan was still there, where he
remained until the next morning. Id. at 607-09.
25

-16.
21

52a

Appendix D

7/17/13 Tr. 486-91. Although Greene initially testified that he did not turn on or look inside the
phone before placing it into evidence, as such actions would require a search warrant, id. at 492-

-53.26
that its phone number was 202-536-0656, and that an outgoing call had been placed to 202-6078268
-407-7313. Id. at 639-41. Detective
Weeks testified that she c
the person who answered the phone identified himself as Watson. 7/10/13 Tr. 627-29.
After learning midcounsel for Ashby filed a Fourth Amendment motion to suppress all of the evidence that police

detail records for 202-536-

sion in United

States v. Flores-Lopez, 670 F.3d 803 (7th Cir. 2012)

a decision that the Supreme Court later

rejected in Riley v. California, 134 S. Ct. 2473 (2014)
ned the phone to figure out what the

text messages or anything of that nature, which is what the Fourth Amendment is potentially
concerned about in the area of th

26

phone, call their own cell number to try to get the number on the caller I.D. of their own phone,
what the number
22

53a

Appendix D

warrant. Id. at 32. The court reasoned

determine the telephone number for the phone so that a warrant could be sought for other inner
Id. at 32Jury Instructions and Closing Arguments
At the end of its case, the government requested Redbook Instruction 7.103
Pinkerton

-conspirator liability

for all charged substantive offenses. 7/31/13

Tr. 5-7. Counsel for Ashby submitted a written opposition arguing that, because co-conspirator
liability is not authorized by statute, and because only the legislature, and not a court, may create
criminal liability in the District of Columbia, instructing the jury on a judicially created theory of
27

co-

see also

convictions on a Pinkerton
trial court agreed with the government and instructed the jury accordingly, it expressed serious

come out this way. . . . I just really wonder if it is a train wreck waiting to happe

Id. at 9; see

also id. at 159-61 (instructing jury on co-conspirator liability).
-conspirator liability, the government argued to
the jury that, because Logan, Ashby, and Watson had all conspired to rob or kidnap Bolden, they
27

included in the Appendix for Appellant Ashby at Tab C.
23

54a

Appendix D

were all guilty of the reasonably foreseeable crimes committed in furtherance of the conspiracy,
including the shootings of Daniels and Bolden, even if they did not actually participate in those
crimes. According to the government, Logan came up with the idea to rob Bolden because he

But because Logan, who was much smaller than Bolden, could not subdue Bolden on his own,
Id.
Id. Citing
,

Id. at 168. With no direct evidence of a criminal agreement and no physical evidence
tying Ashby and Watson to the crimes, the government pointed to the cell phone calls between
Logan, Ashby, and Watson on December 30, 2009, arguing that such communication reflected
their agreement to rob or kidnap Bolden. Id. at 175-76, 179; 8/1/13 Tr. 185.
To explain how the crimes unfolded, the government relied on T
Ashby supposedly told him. 8/1/13 Tr. 18-

parolee who was gainfully employed with

Id. at 17, 20; see also id. at 176, 178. The government also argued that,

Thomas first spoke to the police on January 11, 2010, he could not have recounted such accurate
details about the crimes unless he learned them from Ashby:
[S]omehow Melvin Thomas knows that this happened in the basement. And it is quite

24

55a

Appendix D

How would he possibly know that . . . somebody was in that basement when it happened?
Defendant Ashby told him. There was no other basis on the evidence in this case for
Melvin Thomas to have that information unless it came from someone involved. . . .
[S]omehow [Thomas] knows that . . . Bolden[] was taken over to [S]outheast after they
knocked him out in the basement. Again, January 11th, 2010, more than a month before
the preliminary hearing. . . . So, once again, how does Melvin Thomas know that unless
what he is saying is true? Defendant Ashby told him. . . .
Again, how would Melvin Thomas
Id. at 18, 20-21, 22.

Ashby confessed to shooting Daniels, the cell phone evidence showed that Ashby was nowhere
near 70 W Street at 7:15 p.m., when Daniels was shot. Similarly, although Thomas claimed that
Ashby and Watson transported Bolden to Southeast D.C., the cell phone evidence indicated that
Watson remained in Northwest D.C. from 5:21 p.m. to 9:00 p.m., and that Ashby was back in

o the police the next day.28

8-

Faced with this quandary, the government made only a half-hearted attempt to delineate
29

all the charged crimes

and instead urged the jury to convict all three defendants of

including the shooting of Daniels; the robbery, kidnapping, and murder

of Bolden; and the associated weapons offenses

based on a theory of co-conspirator liability.

As the government explained to the jury in its opening statement:

28

that Logan arrived at her apartment before sunset on December 30, 2009, and remained there
until the next morning. See supra note 24.
29

The government ultimately hypothesized that Logan lured Bolden into the basement; Ashby
assaulted him there; Watson called 911 to divert the police; Logan shot Daniels; and Ashby took
Bolden to Southeast D.C. and shot him there. 8/1/13 Tr. 35-36.
25

56a

Appendix D

If two or more people agree to do something; in this case, to rob, kidnap and kill Carnell
was a party to the agreement committed those crimes. So the question for you to
consider . . . is not who pulled the t
trigger on Danielle Daniels. The question for you to consider is: Was there a conspiracy
to rob, kidnap or to kill Carnell Bolden, and did these three defendants join that
conspiracy and were the crimes that the government charges done in furtherance of that
conspiracy? If the answer to all three of those is yes, defendants are all guilty.
7/2/13 Tr. 212. The government reiterated this theory in its closing and rebuttal arguments,

might not have been there when the shootings took place. That is, the alibi instruction is not

counsel sought permission to argue his theory that Thomas and Carrington, and not Ashby, were
-67, 72. The trial court denied the request, ruling

nd the crimes about which they professed
such intimate knowledge. Id. at 71; 2/21/14 Tr. 27.30 After the government argued in closing
that Thomas could not have possessed such accurate information about the crimes if Ashby had

8/1/13 Tr. 37. The trial court denied this request as well, ruling that, although counsel could
argue
30

The trial court ruled that the defense could argue that Hill was a third-party perpetrator, given
the blood on his jacket and his presence in the area within an hour of the crimes. 7/31/13 Tr. 70,
103. As a selfBrady information about
that Smith was a third-party perpetrator. Id. at 67; see also 5/23/13 Tr. 74.
26

57a

Appendix D

Winfield suspects
when [the court has] already ruled that [the evidence] does not meet

Id. at 37-38.

The jury acquitted Ashby of all charges related to the shooting of Daniels and convicted
him of all other charges. R. 107. He was sentenced to a total of ninety years in prison. R. 124.
ARGUMENT
I.

THE TRIAL COURT COMMITTED REVERSIBLE ERROR WHEN IT PRECLUDED
THE DEFENSE FROM CROSS-EXAMINING THOMAS ON BIAS ARISING FROM
HIS CONNECTIONS TO THE CHARGED CRIMES AND TWO OTHER CRIMES.

the case was fo
the crimes could identify the culprits, and because the physical evidence implicated only Logan,
Ashby. An
important question for the jury was why Thomas

a career criminal, convicted murderer, and

notorious drug dealer
against his best friend Logan. The government argued to the jury that Thomas had nothing to
gain when he first offered his story to the police on January 11, 2010

elf claimed on direct examination that he divulged his

to justice, 7/15/13 Tr. 191-92
background that it suggested a thinly veiled attempt to conceal his true motives.

pursue several distinct lines of cross-examination designed to show that, from beginning to end,
Thomas was a biased witness with enormous interest in aligning himself with the government to
protect himself from official suspicion. Defense counsel first sought to cross-examine Thomas
27

58a

Appendix D

precluded this p
an
DeLoach, 504 F.2d at 192. Without

ermitted to advance his theory in closing
argument, some jurors might have been persuaded to think twice about believing Thomas, whose

as it accounted for bot

ion of that

Court cannot conclude under any standard that the error was harmless.
III.

THE TRIAL COURT COMMITTED REVERSIBLE ERROR WHEN IT INSTRUCTED
THE JURY ON A PINKERTON THEORY OF CO-CONSPIRATOR LIABILITY THAT
HAS NEVER BEEN AUTHORIZED BY THE D.C. LEGISLATURE.
Because no eyewitness placed any of the defendants at the crime scenes, and because the
tion in the shooting of Daniels

and the robbery, kidnapping, and murder of Bolden, the government urged the jury to convict all
three defendants of all charged substantive offenses based on a theory of co-conspirator liability:
If two or more people agree to do something; in this case, to rob, kidnap and kill Carnell
was a party to the agreement committed those crimes. So the question for you to
consider . . . is not who
trigger on Danielle Daniels. The question for you to consider is: Was there a conspiracy
to rob, kidnap or to kill Carnell Bolden, and did these three defendants join that

51

59a

Appendix D

conspiracy and were the crimes that the government charges done in furtherance of that
conspiracy? If the answer to all three of those is yes, defendants are all guilty.
7/2/13 Tr. 212; see also
8/5/

instructed the jury on a theory
of co-conspirator liability based on Redbook Instruction 7.103:
A conspiracy is kind of a partnership in crime. And its members may be responsible for
member of the conspiracy if the defendant was a member of the conspiracy when the
offense was committed and if the offense was committed in furtherance and as a natural
consequence of the conspiracy. . . . Under this theory, in order to find the defendant
guilty of the murder, kidnapping or robbery of Carnell Bolden or the assault or mayhem
offenses related to Danielle Daniels or the related firearm offense, . . . you must find
beyond a reasonable doubt the following:
One, that there was a conspiracy to kidnap or rob Carnell Bolden.
Two, . . . the murder, the kidnapping or robbery of Carnell Bolden or the assault or
mayhem offenses related to Danielle Daniels or the related firearm offense was
committed by a coconspirator of the defendant.
Three, the defendant was a member of the conspiracy to kidnap or rob Carnell Bolden at
the time of the murder, kidnapping or robbery of Carnell Bolden or the assault or
mayhem offenses related to Danielle Daniels or the related firearm offense.
Four, that the murder, kidnapping or robbery of Carnell Bolden or the assault or mayhem
offenses related to Danielle Daniels or the related firearm offense was committed during
the existence of the conspiracy.
Five, that the murder, kidnapping or robbery of Carnell Bolden or the assault or mayhem
offenses related to Danielle Daniels or the related firearms offense was committed in
furtherance of the conspiracy.
And, number six, the murder, kidnapping or robbery of Carnell Bolden or the assault or
mayhem offenses related to Danielle Daniels or the related firearm offense was a
reasonably foreseeable consequence of the conspiracy. It is not necessary to find that the
crime was intended as a part of the original plan, only that it was a foreseeable
consequence of the original plan.
7/31/13 Tr. 159-61. This standard jury instruction is not based on any statute in the D.C. Code,
Pinkerton v. United States, 328 U.S. 640 (1946). See

52

60a

Appendix D

Comment to Redbook Instruction 7.103. Unlike federal courts, and like their state counterparts,
D.C. courts applying local criminal law are not required to follow Pinkerton, which is a part of
the federal criminal law. To the contrary, a D.C. court may not instruct the jury on a theory of
this
United States, 399 A.2d 21, 25 (D.C. 1979) (emphasis added). Because Pinkerton liability is not
authorized by any D.C. statute, and because only the legislature, and not the judiciary, has the
power to create criminal liability in the District of Columbia, Pinkerton liability is not a valid

theory requires reversal.
A.

PINKERTON LIABILITY IS NOT AUTHORIZED BY STATUTE.

Under the Pinkerton doctrine of co-

a co-conspirator who does not

directly commit a substantive offense may nevertheless be held liable for that offense if it was
committed by another co-conspirator in furtherance of the conspiracy and was a reasonably
foreseeable consequence of the conspirat

Wilson-Bey v. United States, 903

A.2d 818, 840 (D.C. 2006) (en banc) (alteration omitted). To secure a conviction based on a
Pinkerton

-conspirator actually

aided the perpetrator in the commission of the substantive crime, but only that the crime was
Id. Neither Congress nor the D.C. Council has
ever enacted a statute authorizing such a theory of criminal liability. In 1901, Congress passed

-degree murder,
id. ch. 854, § 798 (codified as amended at D.C. Code § 22-2101), robbery, id. ch. 854, § 810
(codified as amended at D.C. Code § 22-2801), and kidnapping, id. ch. 854, § 812 (codified as
amended at D.C. Code § 22-2001), the 1901 Code incorporated the common law in effect in
53

61a

Appendix D

Maryland on February 27, 1801, when Maryland ceded to the United States what is now the
District of Columbia.43
:
(1) it has been expressly adopted by statute, or (2) it was part of Maryland common law in 1801
and thus incorporated into the 1901 Code.

, 399 A.2d at 25; see infra Part III.B.

Neither is true of Pinkerton co-conspirator liability.
The conspiracy statute punishes only the act of conspiring to commit a criminal offense,
and does not create a theory of vicarious liability for substantive criminal offenses committed by
co-conspirators. D.C. Code § 22-

commit a criminal

offense . . . each shall be fined . . . or imprisoned not more than 5 years, or both, except that if the
object of the conspiracy is a criminal offense punishable by less than 5 years, the maximum
44

penalty for the conspiracy shall not exc

Nor do the first-degree murder, robbery, or kidnapping statutes authorize punishment for those
crimes based on a theory of vicarious liability. 45 Rather, the only statute in the D.C. Code that
punishes a defendant for an offense that he did not himself commit is the aiding and abetting

43

31 Stat. 1189, ch. 854, § 1 (codified at D.C. Code § 45The common law, all British
statutes in force in Maryland on February 27, 1801, the principles of equity . . . shall remain in
force except insofar as the same are inconsistent with, or are replaced by, some provision of the
provides that all consistent common law
in force in Maryland at the time of the cession of the District of Columbia remains in force as
44

Nor does the legislative history of D.C. Code § 22-1805a mention co-conspirator liability for
a substantive criminal offense. See H.R. Rep. No. 91-1303, at 143 (1970) (Conference Report);
H.R. Rep. No. 91-907, at 66 (1970) (Committee Report).
45

By its terms, . . . the first-degree murder statute imposes felony murder liability solely on the
person who does the killing. Other participants in the felony are exposed to first-degree murder
liability only by virtue of the aiding and abetting statute. Hence, the felony murder liability of an

Christian v. United States, 394 A.2d 1, 48 (D.C. 1978).
54

62a

Appendix D

statute. That statute, which has never been amended since it was enacted as part of the 1901
Code, provides:
In prosecutions for any criminal offense all persons advising, inciting, or conniving at the
offense, or aiding or abetting the principal offender, shall be charged as principals and not
as accessories, the intent of this section being that as to all accessories before the fact the
law heretofore applicable in cases of misdemeanor only shall apply to all crimes,
whatever the punishment may be.
D.C. Code § 22-1805. The aiding and abetting statute provides that accomplices may be charged
and punished as principals for the crimes they assist; it does not provide that co-conspirators may
be punished for all foreseeable crimes committed in furtherance of the conspiracy.
Indeed, as this Court explained in its en banc opinion in Wilson-Bey Pinkerton liability
and aiding and abetting are distinct legal theories th

Id. at 831 (quoting United States v. Peoni, 100 F.2d 401, 402 (2d Cir. 1938)). In other
the aider or abettor must have knowingly aided the other person with the intent that the
Id. at 834. To be convicted under Pinkerton liability,

conspirator in furtherance of the conspiracy and was a reasonably foreseeable consequence of the
Id. at 840 (citation omitted); see id.
required [under Pinkerton] to establish that the co-conspirator actually aided the perpetrator in
the commission of the substantive crime, but only that the crime was committed in furtherance of
In other words, Pinkerton co-conspirator liability requires neither the act of

55

63a

Appendix D

furtherance of the conspiracy and was a
reasonably foreseeable consequence of the conspiratorial agreement. Id. at 834, 840; see also
Erskines v. United States, 696 A.2d 1077, 1080-81 & n.5 (D.C. 1997) (explaining that, whereas
aiding and abetting liabili
Pinkerton doctrine allows conviction for substantive
offenses without satisfaction of either the actus reus or mens rea element of the substantive
2 W. LaFave, Substantive Criminal Law

[O]ne is not an accomplice

to a crime merely because that crime was committed in furtherance of a conspiracy of which he
is a member, or because that crime was a natural and probable consequence of another offense as

Co-conspirator liability, as distinct from accomplice liability, did not exist at common
Agresti v. State,
234 A.2d 284, 285 (Md. Ct. Spec. App. 1967). Under Maryland common law as it existed in
1801 and as incorporated into D.C. law by the 1901 Code,
in four capacities: as a principal in the first degree, a principal in the second degree, an accessory
Osborne v. State, 499 A.2d 170, 171 (Md. 1985)
(citing 4 W. Blackstone, Commentaries *34-40; 2 J. Stephen, A History of the Criminal Law of
England ch. 22, at 229-31 (1883)).46
Agresti, 234 A.2d at 285.47 Principals in the second degree are
46

See Osborne

common law of England as it then exis
47

Owens v. United
States, 982 A.2d 310, 317 (D.C. 2009) (quoting R. Perkins, Perkins on Criminal Law 656 (2d ed.
1969) (omission in original).
56

64a

not thems

Appendix D

McBryde v. State, 352 A.2d 324, 326 (Md. Ct. Spec. App. 1976).

Id. Principals in the second degree and

Id.; see also Murchison
v. United States, 486 A.2d 77, 82 n.5 (D.C. 1984)
Handy v. State, 326 A.2d 189,
An aider is one who assists, supports or supplements the efforts
of another in the commission of a crime. An abettor is one who instigates, advises or encourages
, comfort, or
Agresti, 234 A.2d at 285-86. Under
D.C. Code § 22-1805, only aiders and abettors can be charged and punished as principals for the
crimes they assist.48 Neither Congress nor the D.C. Council has ever recognized any other party
to a criminal offense. Thus, unlike state legislatures that have specifically amended their aiding
and abetting statutes to include co-conspirator liability, 49 the D.C. legislature has never expanded
vicarious liability for a substantive criminal offense to include co-conspirator liability. 50
48

In the District of Columbia, accessories after the fact are punished separately, with a far less
severe penalty than principals and accomplices. See D.C. Code § 22-1806.
49

E.g., Ky. Re
§ 2923.03

50

At common law, and prior to Pinkerton, a defendant was responsible for the acts of his coto establish as the act of all members of the
alleged conspiracy the overt act required by the federal conspiracy statute, (2) to show the extent
and duration of the conspiracy in relation to all the conspirators, or (3) as a rule of evidence to
57

65a

B.

Appendix D

THE JUDICIARY HAS NO POWER TO IMPOSE CRIMINAL
PUNISHMENT BASED ON A THEORY OF LIABILITY NOT
AUTHORIZED BY THE LEGISLATURE.
the power of punishment

is vested in the legislative, not in the judicial department. It is the legislature, not the Court,
United States v. Wiltberger, 18 U.S. 76,
95 (1820); see also Whalen v. United States

Although the courts

of the District of Columbia were created by Congress pursuant to its plenary Art. I power to
legislate for the District, and are not affected by the salary and tenure provisions of Art. III, those
courts, no less than other federal courts, may constitutionally impose only such punishments as
Congress has seen fit to authorize. . . . The Due Process Clause of the Fourteenth Amendment
. . . would presumably prohibit state courts from depriving persons of liberty or property as
punishment for criminal conduct except to the ext
omitted)); United States v. Bass

ecause of the seriousness of

criminal penalties, and because criminal punishment usually represents the moral condemnation
of the community, legislatures and not courts should define criminal activity. This policy
Vicarious Liability for Criminal Offenses of
Co-Conspirators, 56 Yale L.J. 371, 375prior to the Pinkerton case, the
doctrine had not, by its own force, supported an imposition of vicarious liability for substantive
offenses committed by co-conspirators. Where prosecutors had sought to hold the accused on
both counts, the question of guilt was apparently submitted to the jury either on evidence that he
Id.
at 376; see also Lawrence v. State, 63 A. 96, 97the acts and declarations of
each co-conspirator made during the progress of the execution of the object of the conspiracy
and in furtherance
Bloomer v.
State, 48 Md. 521, 530Before any act can be evidence against a man, it must be
shown to be an act done by himself, or another, acting by his authority, or in pursuance of a
common design. The text books on Evidence speaking of the acts and declarations of one of a
n the unlawful enterprize
being thus shown, every act and declaration of each member of the confederacy in pursuance of
the original concerted plan, and with reference to the common object, is in contemplation of law,
.
58

66a

Appendix D

Missouri v. Hunter, 459 U.S. 359, 368 (1983)
McNeely v. United States, 874
definition of the elements of a criminal offense is entrusted to
Liparota v. United States, 471 U.S. 419, 424 (1985)).
This separation of powers principle applies in the District of Columbia, under both local
law and federal constitutional law. See D.C. Code § 1principle of separation of powers in the structure of the D
Wilson v. Kelly

structuring [the District of Columbia]

government, Congress is not bound by the separation of powers limitations that control its
powers at the national level. Nonetheless, in the District Charter, Congress chose to create, as a
general proposition, the familiar tripartite structure of government for the District. . . . [I]t is
n each
branch that the same general principles should govern the exercise of such power in the District
Whalen, 445
U.S. at 689 n.4 (holding that federal separation of powers principles preclude D.C. courts from
imposing criminal punishments not authorized by Congress).
Accordingly, this Court has steadfastly refused to expand criminal liability beyond what
the legislature has prescribed by statute.51 For example, in Little v. United States, 709 A.2d 708

51

rules of proof that were originally designed to ensure the
See, e.g., United
States v. Jackson, 528 A.2d 1211, 1219Arnold v. United
States, 358 A.2d 335, 343-44 (D.C.

59

67a

dead at the time the defenda

Appendix D

Id. at 712. The Court reasoned

that this rule was in effect when the accessory after the fact statute was enacted in 1901, and that
-century that has elapsed
Id. at 712-13. Although the rule had been repealed by statute in many jurisdictions,

remained unchanged in pertinent respects for almost a century, should be affected by legislative
Id. at 714. This Court held:
ree, the scope of a statutory criminal
offense, our authority to do so must be exercised with restraint, lest we intrude upon the
prerogatives of the legislative branch and the liberties of the citizen. Accordingly, we
to amend the venerable common law rule . . . .
legislature, and not the court, should decide whether the common-law rule, which is by
Id. at 714 (alteration in original). See also United States v. Heinlein, 490 F.2d 725, 736 (D.C.
Cir. 1973) (refusing to expand the felony murder doctrine beyond what was incorporated from
Maryland common law in the 1901 Code);

, 399 A.2d at 25 (holding that the common

prosecution

in the Maryland common law in 1801 and

thus incorporated into D.C. law by the 1901 Code).
Because no statute in the District of Columbia provides that a defendant may be punished
for the crimes committed by his co-conspirators in furtherance of the conspiracy, and because
only the legislature, and not the judiciary, may create or expand criminal liability in the District
of Columbia, the trial court erred in instructing the jury on a Pinkerton theory of co-conspirator
60

68a

Appendix D

liability. Although the validity of the Pinkerton instruction as part of D.C. law is an issue of first
impression,52 state courts that have considered the issue have held that, in the absence of a state
statute authorizing co-conspirator liability, the Pinkerton
criminal law and may not be used in state criminal trials. As the New York Court of Appeals has
persuasively reasoned:
ficient to
support a conviction for a substantive offense committed by a coconspirator, it is noted
that the Legislature has defined the conduct that will render a person criminally
responsible for the act of another. Conspicuously absent from [the aiding and abetting
statute] is reference to one who conspires to commit an offense. That omission cannot be
supplied by construction. Conduct that will support a conviction for conspiracy will not
perforce give rise to accessorial liability. True, a conspira
will suffice to establish liability as an accomplice, but the concepts are, in reality,
of the substantive crime without any evidence of further action on the part of the
defendant, would be to expand the basis of accomplice liability beyond the legislative
design.
The crime of conspiracy is an offense separate from the crime that is the object of the
conspiracy. Once an illicit agreement is shown, the overt act of any conspirator may be
attributed to other conspirators to establish the offense of conspiracy and that act may be
the object crime. But the overt act itself is not the crime in a conspiracy prosecution; it is
merely an element of the crime that has as its basis the agreement. It is not offensive to
permit a conviction of conspiracy to stand on the overt act committed by another, for the
act merely provides corroboration of the existence of the agreement and indicates that the
agreement has reached a point where it poses a sufficient threat to society to impose
sanctions. But it is repugnant to our system of jurisprudence, where guilt is generally
personal to the defendant, to impose punishment, not for the socially harmful agreement
to which the defendant is a party, but for substantive offenses in which he did not
participate. We refuse to sanction such a result and thus decline to follow the rule
adopted for Federal prosecutions in Pinkerton v. United States. Accessorial conduct may
52

Although Pinkerton
this Court has
never expressly adopted the doctrine as a matter of D.C. law, much less considered whether it
conspirator liability do not constitute precedent on the question presented here. See Murphy v.
McCloud
brought to the attention of the court nor ruled upon, are not to be considered as having been so
decided as to constitute precedents. The rule of stare decisis is never properly invoked unless in
the decision put forward as precedent the judicial mind has been applied to and passed upon the
precise question. A point of law merely assumed in an opinion, not discussed, is not

61

69a

Appendix D

not be equated with mere membership in a conspiracy and the State may not rely solely
on the latter to prove guilt of the substantive offense.
People v. McGee, 399 N.E.2d 1177, 1181-82 (N.Y. 1979) (citations omitted). 53 Numerous other
state courts have held the same. See, e.g., State ex rel. Woods v. Cohen, 844 P.2d 1147, 1151

liability. Pinkerton liability is not within the statutory universe. Therefore, Pinkerton liability is
State v. Nevarez
need not decide whether application of the Pinkerton theory would be advisable as a matter of
public policy because we find it to be inconsistent with Idaho statutes. It is the province of the
Idaho legislature, not the courts, to define the elements of a crime. Therefore, Idaho courts are
Bolden v. State, 124 P.3d 191,

and authority of the Legislature. No statutory underpinning for the Pinkerton rule exists in
Nevada. In the absence of statutory authority providing otherwise, we conclude that a defendant
may not be held criminally liable for the specific intent crime committed by a coconspirator
simply because that crime was a natural and probable consequence of the object of the
conspiracy.

State v. Small, 272 S.E.2d

a crime and prescribe its punishment, not the courts or the district attorney. Accordingly, we join
the ranks of those who reject the rule in Pinkerton

State v. Stein, 27 P.3d

184, 188 (Wash. 2001) (en banc) (rejecting co-conspirator liability as not authorized by the
conspiracy statute or the accomplice liability statute); see also Commonwealth v. Stasiun, 206
N.E.2d 672, 680 (Mass. 1965) (

conspirator is as matter of law an

53

H.R. Rep. No. 91-907, at 66 (1970) (Committee Report).
62

70a

Appendix D

aider or abettor in the perpetration of the crimes whose commission he has agreed with others to
accomplish. We are mindful that a different rule now prevails in the Federal courts as a result of
the decision in Pinkerton v. United States, although prior to that decision the views of the lower
Federal courts were conflicting. . . . With deference, we are not persuaded to follow the
Pinkerton

supra

Pinkerton rule never gained broad

acceptance, the opposition to it has grown significantly in recent years. It was rejected by the
draftsmen of the Model Penal Code and of the proposed new federal criminal code. Most of the
state statutes on accomplice liability require more than membership in the conspiracy, and the
language in these statutes has been relied upon by courts in rejecting the conclusion that
his
Court should follow the sound reasoning of its sister courts and conclude that, because Pinkerton
liability is not authorized by D.C. statute, it cannot form the basis of a D.C. criminal conviction.
C.

REVERSAL IS REQUIRED.

Because the trial court instructed the jury on a legally invalid theory of criminal liability,
and because it is impossible to discern from the general verdicts whether any of the jurors relied
on that invalid theory to convict Ashby of the charged offenses, reversal is required. See Yates v.
United States
requires a verdict to be set aside in cases where the verdict is supportable on one ground, but not
on another, and it i

Thomas v. United

States

Yates, we need not conduct a harmlessness

analysis under Chapman v. California. Where it cannot be determined whether the conviction

Coghill v. United States

]henever various alternative
63

71a

Appendix D

theories of liability are submitted to a jury, any one of which is later determined to be [legally]
improper, the conviction cannot be sustained. This is because of the possibility that the verdict
might have rested entirely u
IV.

THE TRIAL COURT COMMITTED REVERSIBLE ERROR WHEN IT RULED THAT
POLICE COULD SEARCH
ITHOUT A WARRANT.
On January 9, 2010, police seized a cell phone from Ashby during a search incident to his

arrest. 7/2/13 Tr. 292; 7/16/13 Tr. 469. Two days later, on January 11, 2010, Detective Greene

-89. Although Greene initially testified that he did not turn on or look
inside the phone because he would need a search warrant to do so, he later admitted that, prior to
obtaining a search warrant, he turned on the phone and used it to call himself in order to discover
Id. at 494-96; 7/29/13 Tr. 52-53.54

United States v. Wurie, 728 F.3d 1 (1st Cir. 2013). R.
ion in United States v. Flores-Lopez, 670 F.3d 803 (7th

ch a limited search did not require a warrant. 7/30/13 Tr. 31. The trial court agreed

Id. at 32-33.
54

phone, call their own cell number to try to get the number on the caller I.D. of their own phone,
what the
64

72a

Appendix E

73a

Appendix E

74a

Appendix E

75a

Appendix E

76a

Appendix E

77a

Appendix E

78a

Appendix E

79a

Appendix E

80a

Appendix E

